Barbara Dale Underwood for the Government Plaintiffs
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212.416.8016
Email: barbara.underwood@ag.ny.gov
Dale E. Ho for the ACLU and Organization Plaintiffs
American Civil Liberties Union
125 Broad Street
New York, NY 10004
212.549.2693
Email: dale.ho@aclu.org
Jeffrey B. Wall for the Federal Defendants
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202.514.2217
Email: supremectbriefs@USDOJ.gov

